REMITTITUR
SUPREME COURT OF GEORGIA
Atlanta, February 28,2020

Case No. S19A1052

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:

DAMON BAMBERG v. THE STATE
This case came before this Court upon an appeal from the Superior Court of Jeff
Davis County and it is considered and adjudged that the judgment is affirmed and
that the remittitur be transmitted with the attached decision.
All the Justices concur.
f«o

'-O
•-’•ir-

—:rn

■ " ^3 T]

2s»

Lower Court Case No.
2008SUR14 •
Associated Cases
SI810006, SI810009

;

.n

i

-o
™

:-to

§2o
re*0!!!
r<Srn

cn

Costs paid: $80.00

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta May 05,2020
I hereby certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said Court hereto
affixed the day and year last above written.

&LU It"

b) the defendant, Sonya Bamberg,

5. As to Count 5. possession of a firearm during the commission of a crime, we
the jury find
a) the defendant, Damon Bamberg

G ii'i I fy

(mlfy

b) the defendant, Sonya Bamberg

6. As to Count 6, Criminal damage to property in the 2nd degree, we the jury find
a) the defendant, Damon Bamberg

Guilt

f

b) the defendant, Sonya Bamberg

7. As to Count 7, Cruelty to Children in the 1st degree we the jury find

flit (nil Iff

a) the defendant Damon Bamberg

b) the defendant Sonya Bamberg

So say we all, this the

Rledtn office this day

~Y.vO

*7

day of September 3, &00$

Foreperson

■ 1

In the Superior Court
for the County of Jeff Davis

The State of Georgia

2008-SU-R- 14

vs.

filed In offlc*this day

Damon Bamberg and
Sonya Bamberg
VERDICT

SupSto* wuurt

1. As to Count 1, Malice Murder, we the jury find

a) the defendant, Damon Bamberg

b) the defendant, Sonya Bamberg

-7'.10 ?r\

G-il\ I ty
G-UlI I t\J

y

2. As to Count 2,, Felony Murder while in the Commission of an Aggravated
Assault, we the jury find
a) the defendant, Damon Bamberg

b) the defendant, Sonya Bamberg

(p.i'/fy
failfy

3. As to Count 3, Aggravated Assault as alleged in this Count, we the jury find
a) the defendant, Damon Bamberg

WIlf

b) the defendant, Sonya Bamberg

friurfy

4. As to Count 4, Aggravated Assault as alleged in this Count, we the jury find
a) the defendant, Damon Bamberg,

(X6t! It

f

g
W
O

s
»

In the Supreme Court of Georgia

Sir
*»nrn
-7

>;r=p-

.. •

-< ' o
<]n
'^35.
U
O70O

* 3 |S3
Decided: February 28, 2020? ■

1

ro ^grn
r er>§S
cn

S19A1052. BAMBERG v. THE STATE.
S19A1054. BAMBERG v. THE STATE.

BOGGS, Justice.
After a 2009 jury trial, Damon Bamberg and his mother, Sonya
Bamberg, were convicted of murder and other offenses arising out of
the shooting death of Damon’s ex-wife, Allison Nicole “Nikki”
Bamberg.1 They appeal, asserting error in the reconstruction of a

1 The crimes occurred in the early evening of January 18, 2008. On
February 12, 2008, a Jeff Davis County grand jury indicted the Bambergs for
malice murder, felony murder, two counts of aggravated assault, possession of
a firearm during the commission of a crime, criminal damage to property in
the second degree, and cruelty to children in the first degree. At a trial from
August 31 to September 3, 2009, the trial court directed a verdict on the
cruelty-to-children charges, and a jury found the Bambergs guilty of all
remaining charges. The trial court sentenced the Bambergs to serve life in
prison for malice murder and a total of 30 years to serve consecutively on the
remaining charges. The trial court merged one aggravated assault charge into
each malice murder conviction, and the felony murder charges were vacated
by operation of law. On October 22, 2009, the Bambergs filed separate motions
for new trial. Damon’s motion was amended by new counsel on August 5, 2016.
Sonya’s motion was amended by new counsel on August 5 and 10, 2016, and

>—i

'missing transcript of the first day of trial and in the denial of their
motions to reopen the evidence to submit a transcript of a “true
crime” television show. In addition, Damon asserts insufficiency of
the evidence and error in the admission of a statement made by
Sonya, and Sonya asserts that the trial court impermissibly
commented on the evidence and the credibility of witnesses. For the
reasons stated below, we affirm.
1. Construed in the light most favorable to the jury’s verdicts,
the evidence presented at trial showed that Damon and Nikki
Bamberg had a contentious and violent marriage that ended in
divorce.2 At the time of the events at issue here, the parties were
separated and Nikki was living in an apartment in Hazlehurst, in
Jeff Davis County. Witnesses testified that, on several occasions,
Damon was violent with both Nikki and his first wife. Nikki’s friend

February 21, 2018. On December 27, 2018, after a joint hearing, the trial court
denied the motions. Damon and Sonya each filed a timely notice of appeal on
January 28, 2019. Both cases were docketed in this Court for the August 2019
term and submitted for decision on the briefs.
2 Nikki’s domestic relations attorney testified that the divorce was filed
in 2006 and became final on January 14, 2008.
2

and coworker testified that Sonya told Nikki in the friend’s presence,
“I will see you dead before I let you have those boys,” referring to
Damon and Nikki’s two children. Two witnesses testified that in
October or November of 2007, Sonya approached one of them while
Damon was present and solicited one of the witnesses to murder
Nikki for $25,000. In November 2007, Damon took out a $50,000 life
insurance policy, with a rider in the amount of $150,000 for
accidental death, on Nikki and named Sonya as the beneficiary.
While confined in the Jeff Davis County jail on the instant charges,
Damon told a fellow inmate, Burtis Taylor, that “Mama said it’s
elimination time.” Police officers and GBI agents found a calendar
on Damon and Sonya’s refrigerator that had Friday, January 18,
2008 marked with a “frowny face” and the words, “hell begins.”
On January 18, 2008, four days after the divorce became final,
Nikki drove to a convenience store in Uvalda, in Montgomery
County, to deliver the couple’s two children for visitation. Damon
and Sonya were in a distinctive car, a 1972 Chevrolet Chevelle with

3

a skull and crossbones front license plate.3 Investigators from the
Jeff Davis County Sheriffs Office and the GBI testified that the
convenience store video surveillance cameras showed that Nikki left
the store at 6:01 p.m, followed by Damon two minutes later. In a call
that cell phone records showed began at 6:05 p.m., Nikki was talking
with her father when she exclaimed that her rear window had just
cracked and that she thought somebody was shooting at her; then
she stopped talking, and the phone “made a bumping sound like she
had dropped it.” Nikki pulled over to the side of Highway 221 in Jeff
Davis County, at a natural gas substation approximately one mile
south of the Montgomery County line. While Nikki was still in her
vehicle, she was shot twice in the head and neck at close range,
causing her death.
Between 6:08 and 6:10 p.m., a motorist driving southbound on
Highway 221 was just entering Jeff Davis County from Montgomery
County when he saw a 1972 Chevrolet Chevelle with an unusual

3 The children, who were 3 and 5 years old, apparently got into the
Bambergs’ car, but they were not called as witnesses at trial.
4

skull-and-crossbones front tag travelling northbound on Highway
221 at “at least” 80 to 90 miles per hour, with two adults in the front
seat. As the motorist passed the substation south of the bridge, he
saw a car with its dome light on and a leg sticking out of the open
driver’s door, but assumed at the time that the driver was talking
on the phone.
Damon initially told a GBI investigator that, at the meeting at
the convenience store, Nikki fought with him over the children’s
medication and injured his hand, and he went into the convenience
store to get ice for his hand. Then, he said, he and his mother drove
straight to the Montgomery County Sheriff’s Office to report that
Nikki had assaulted him, while Nikki drove off in the opposite
direction, towards Hazlehurst.4 But while Damon was confined in
the Jeff Davis County jail, he told another inmate, Don Ellis, that
he and his mother had stopped to pick up the children at the store;
that his wife had fussed at him, grabbed the diaper bag, and twisted

4 The Bambergs went to the sheriffs office in Mount Vernon and filed a
police report.
5

his arm; that she left in her car and he and his mother pursued her,
with his mother driving; that his wife “wouldn’t pull over so he . . .
shot at the car” and she then pulled over; that he walked up to the
car and she was trying to crawl out the passenger side, so he shot
her; and that he and his mother then drove to the Montgomery
County Sheriffs Office as fast as they could to file a police report
claiming that Nikki had assaulted him in Uvalda.
After Sonya was arrested and confined in the Jeff Davis County
jail, she became friendly with inmate Burtis Taylor, who was due to
be released. Shortly before Taylor’s release, Sonya drew a map and
instructed Taylor to retrieve a pistol from Damon’s brother, as well
as some magazines and casings that had been hidden in a chicken
pen behind her house in Mt. Vernon, to conceal them on another
person’s property, and then to inform law enforcement so that the
other person would be blamed for the murder.
Acting on the information that some gun parts were buried
behind Sonya’s house, investigators from the Jeff Davis County
Sheriffs Office and the GBI searched the area and found several
6

magazines and other gun parts consistent with a Hi-Point brand .45
ACP pistol, as well as a box of Winchester brand .45 ACP caliber
cartridges and bullets. Ejected shells found at the scene of Nikki’s
death, ejected shells found approximately four tenths of a mile down
the road, and the bullet fragments retrieved from Nikki’s body were
all consistent with having been fired from a single, unknown HiPoint .45 ACP pistol. Damon’s brother testified that he received a
.45 caliber Hi-Point pistol in exchange for doing repair work on a
car, that Damon and Sonya were at his house on the day of the
incident, and that he discovered the pistol was missing from his
truck after Nikki’s death. That pistol was never recovered.
(a) Damon challenges the sufficiency of the evidence to support
his convictions, pointing to an apparent discrepancy between the
timeline of events testified to by Jeff Davis County and GBI
investigators and notations made in a handwritten log kept by a
former Montgomery County Sheriffs Office dispatcher, whom the
Bambergs called as a witness. Damon contends that because the
evidence against him was “akin to” circumstantial evidence, the
7

State therefore was required to exclude every reasonable hypothesis
other than his guilt; and that as shown by the relevant times of
entries in the handwritten log, he could not have committed the
murder because the log showed that he was at the Montgomery
County Sheriffs Office at the time Nikki was killed. He surmises
that Nikki must have been killed by an unknown assailant in a “road
rage” incident.
Both former OCGA § 24-4-6 and OCGA § 24-14-6 provide: “To
warrant a conviction on circumstantial evidence, the proved facts
shall not only be consistent with the hypothesis of guilt, but shall
exclude every other reasonable hypothesis save that of the guilt of
the accused.” Here, however, the State presented direct evidence of
Damon’s guilt, including his statement to a fellow inmate describing
in detail how he killed Nikki. See Goins v. State, 306 Ga. 55, 56 (1)
(829 SE2d 89) (2019) (evidence not wholly circumstantial when it
included appellant’s confession to former cellmate).
Moreover, to the extent that Damon’s convictions did depend
upon circumstantial evidence, “this evidence need not exclude every
8

conceivable inference or hypothesis; it must rule out only those that
are reasonable. And it is principally for the jury to determine
whether an alternative hypothesis is reasonable.” (Citations and
punctuation omitted.) Id. Here, while the entries in the handwritten
log appear inconsistent with the timeline established by the
testimony of witnesses from the Jeff Davis County Sheriffs Office
and the GBI, the evidence presented at trial showed that the log
contained numerous errors and omissions with respect to other
events occurring on the night of the shooting and the timing of those
events. For example, on cross-examination, the dispatcher
acknowledged that “there was a lot of stuff going on ... but it might
not have all got recorded,” and that if the times entered in his log
were not consistent with those of the Jeff Davis County Sheriffs
Office, they “would be incorrect ” Moreover,
it was for the jury to determine the credibility of the
witnesses and to resolve any conflicts or inconsistencies
in the evidence. Likewise, it was for the jury to decide
whether the defense theory that [an unknown assailant]
was the killer was reasonable and not excluded by the
other evidence. . ..

9

(Citations and punctuation omitted.) Wilson v. State, 295 Ga. 84, 85
(1) (b) (757 SE2d 825) (2014), disapproved on other grounds in State
v. Orr, 305 Ga. 729, 735 n.5 (757 SE2d 825) (2014). Based upon this
evidence, the jury was not required to find that Damon’s hypothesis
was reasonable. We also note that the evidence was sufficient as a
matter of constitutional due process to authorize a rational finder of
fact to conclude beyond a reasonable doubt that Damon was guilty
of the crimes for which he was convicted. See Jackson v. Virginia,
443 U. S. at 319 (III) (B) (99 SCt 2781, 61 LE2d 560) (1979).
(b) Sonya does not challenge the sufficiency of the evidence to
support her convictions. However, as is this Court’s practice in
murder cases, we have reviewed the record to determine the legal
sufficiency of the evidence. We conclude that the evidence presented
at trial and summarized above was sufficient to enable a rational
trier of fact to conclude beyond a reasonable doubt that Sonya was
guilty of the crimes for which she was convicted. See id.
2. Both Damon and Sonya contend that the loss and
subsequent reconstruction of the transcript of the first day of trial
10

denied them their right to appeal. We conclude that the trial court
followed the correct procedure for reconstructing the transcript
under OCGA § 5-6-41 (f) and (g), and that the trial court’s adoption
of the transcript created by that procedure has not deprived the
Bambergs of their right to appeal.
The Bambergs’ joint trial took place over four days in August
and September 2009, and a total of 38 witnesses testified. After the
filing of the Bambergs’ initial motions for new trial, there was
substantial delay in obtaining the transcript for various reasons,
including continuances and two transfers of the case to new trial
judges. After the transcript was delivered, the parties discovered
that, due to an equipment malfunction, most of the first day’s
testimony had not been transcribed, and the Bambergs moved for a
new trial on that basis. After the hearing on the motion for new trial
was continued several times, and after an expert unsuccessfully
attempted to recover data from the defective tapes, the State
requested a hearing to reconstruct the missing testimony. The
Bambergs objected and insisted upon a new trial.
11

On July 10, 2017, the trial court held a hearing and entered a
detailed order setting out the procedure for reconstructing the
record, relying upon OCGA § 5-6-41, Mosley v. State, 300 Ga. 521,
524-525 (2) (796 SE2d 684) (2017), and Sheard v. State, 300 Ga. 117
(793 SE2d 386) (2016). The relevant portion of that order provided:
At the hearing, the State may subpoena and call all five
witnesses from the first day of the trial. Additionally, the
trial attorneys for both Defendants and the assistant
district attorney who tried the case, and others present
for the original trial, may be present in court to hear the
testimony of the five witnesses and those individuals
shall be called as witnesses after the five trial witnesses
have testified to determine if they believe the testimony
at the hearings was substantively the same testimony
that was heard during the first day of the trial. After the
five trial witnesses have testified and the trial counsel
have testified as outlined above, this Court will determine
if there is a dispute about whether the testimony is
substantively the same testimony that was heard at the
trial and [thereafter] rule on the State’s Motion to
Supplement the Record on Appeal.
The trial court also noted that “[t]he five witnesses whose testimony
was lost, the judge who presided over the trial, the court reporter,
and all trial attorneys are all alive and available to testify.”6
5 The Bambergs sought and received a certificate of immediate review
12

At the hearing, all five of the original witnesses from the first
day of the trial appeared and testified.6 In addition, one of the
prosecutors from the original trial testified that the testimony of the
five witnesses “was substantially the same as the testimony that
was heard during the first day of trial.” That prosecutor also
testified regarding the admission of exhibits and the making of
defense motions.7 The Clerk of Superior Court, who was present at
the trial, also testified and identified her contemporaneous notes
recording the witnesses at trial in order of their appearance,
including brief notes on their testimony, the admission of exhibits,

for the order setting the hearing, but this Court denied their applications for
interlocutory appeal. See Case Nos. S1810006, S18I0009 (decided Sept. 5,
2017).
6 The witnesses, in order of their appearance, were: (1) Gary Orvin,
Nikki’s father, who testified to his phone call with Nikki; (2) GBI agent Brian
Hargett, who testified to tire and shoe impressions found at the scene and his
inability to connect those impressions to Damon; (3) Jeff Davis County 911
dispatcher Sheryl Foskey, who testified to Orvin’s 911 call and identified the
recording; (4) Sheriff Preston Bohannon, a deputy at the time of the original
trial, who testified that he responded to the call and found Nikki slumped in
her vehicle, covered in blood; and (5) emergency medical technician Roger
Ogilvie, who testified that he responded to the scene and confirmed that Nikki
was dead. While the 911 call was identified on the first day of trial, it was
played in redacted form for the jury during the transcribed portion of the
original trial.
7 The prosecutor testified at the hearing that the other attorney for the
State had died.
13

and other events that occurred during trial. She affirmed that this
was her normal routine and that she tried to “truly and accurately
keep a record of... what goes on and put it in [her] notes.”
Despite the detailed guidelines provided by the trial court’s
order, the Bambergs called no witnesses, and neither the Bambergs’
trial counsel nor the original trial judge attended or testified. The
Bambergs’ new attorneys (“appellate counsel”) very briefly crossexamined the State’s witnesses but continued to insist that a new
trial was the only remedy and that the State had the sole
responsibility to perfect the record for appeal. The trial judge
acknowledged that as a successor judge, he could have no
recollection of the trial, but he found that the testimony at the
hearing was substantively the same as that heard during the first
day of trial and adequately supplemented the existing record.
Relying upon Mosley and Glass v. State, 289 Ga. 542 (712 SE2d 851)
(2011), the trial court held: “The transcript of the November 6, 2017
hearing having been filed; the Court hereby adopts this testimony
and finds that the testimony supplementing the record was
14

sufficient. The record is now complete.”
The parties do not address the procedural requirements of
reconstructing the record on appeal. The State relies primarily upon
Mosley, which affirmed the preparation of a reconstructed record,
while the Bambergs rely upon Sheard, which concluded that an
attempted reconstruction was inadequate. But the loss of a portion
)

of a trial transcript due to some accident or equipment malfunction
is not unheard of, and, as shown by other decisions of this Court, the
question of the adequacy of a given reconstruction is a fact-intensive
analysis. After considering the facts presented here, we conclude
that the State met its burden to produce a transcript pursuant to
OCGA § 5-6-41 (f) and (g); that the trial court correctly approved the
reconstructed transcript; and that the Bambergs, having refused the
opportunity to contribute to the preparation of the reconstructed
transcript, have not established that it is incomplete.
Subsections (f) and (g) of OCGA § 5-6-41 provide:
(f) Where any party contends that the transcript or record
does not truly or fully disclose what transpired in the trial
court and the parties are unable to agree thereon, the trial
15

court shall set the matter down for a hearing with notice
to both parties and resolve the difference so as to make
the record conform to the truth. If anything material to
either party is omitted from the record on appeal or is
misstated therein, the parties by stipulation, or the trial
court, either before or after the record is transmitted to
the appellate court, on a proper suggestion or of its own
initiative, may direct that the omission or misstatement
shall be corrected and, if necessary, that a supplemental
record shall be certified and transmitted by the clerk of
the trial court. The trial court or the appellate court may
at any time order the clerk of the trial court to send up
any original papers or exhibits in the case, to be returned
after final disposition of the appeal.
(g) Where a trial is not reported as referred to in
subsections (b) and (c) of this Code section or where for
any other reason the transcript of the proceedings is not
obtainable and a transcript of evidence and proceedings
is prepared from recollection, the agreement of the parties
thereto or their counsel, entered thereon, shall entitle
such transcript to be filed as a part of the record in the
same manner and with the same binding effect as a
transcript filed by the court reporter as referred to in
subsection (e) of this Code section. In case of the inability
of the parties to agree as to the correctness of such
transcript, the decision of the trial judge thereon shall be
final and not subject to review; and, if the trial judge is
unable to recall what transpired, the judge shall enter an
order stating that fact.
These

subsections,

construed

together,

provide

for

the

reconstruction of a missing transcript of the proceedings whether or

16

not the parties agree as to the contents. And while “the correctness
of such transcript,” as determined by the trial judge, is “final and
not subject to review,” OCGA § 5-6-41 (g), whether the transcript is
complete pursuant to OCGA § 5-6-41 (f) is reviewable on appeal. See
Johnson v. State, 302 Ga. 188,194 (3) (b) (805 SE2d 890) (2017) (“An
appellant is entitled to a complete and correct transcript, one that
discloses what transpired in the trial court not only truly but fully.”
(Citation and punctuation omitted.)).
In Johnson, all of the court reporter’s materials and tapes were
destroyed in a house fire, and the entire transcript of a six-day trial
was lost. We observed that the procedure used in Mosley, “calling
witnesses who testified or other individuals who were present for
the trial,” was an acceptable method of re-creating part of a lost trial
transcript. 302 Ga. at 194 (3) (b). However, “[s]uch measures were
not taken to re-create the transcript” in Johnson. Instead, the State
apparently failed to interview and did not call any witnesses or
observers, and appellant’s counsel received no assistance from trial
counsel, who died before the hearing. This “lackluster information17

gathering process” produced only a brief narrative account of a sixday trial. Id. at 195 (3) (b). We concluded that because the entire
original trial transcript was lost and the attempt at reconstruction
was “manifestly inadequate,” a new trial was required. Id. at 198 (3)
(c). See also Sheard, 300 Ga. at 119-120 (2) (holding that new trial
required when no hearing was held to reconstruct missing transcript
under OCGA § 5-6-41 (f) and (g), and trial court denied motion for
new trial based on its standard practices and recollection 15 years
after trial). Here, by contrast, only one day’s testimony from a fourday trial was reconstructed by use of the procedures outlined in
OCGA § 5-6-41 (f) and (g), as opposed to “creating a trial transcript
from scratch” as unsuccessfully attempted in Johnson. See 302 Ga.
at 193 n.7 (3) (a). See also Mosley, 300 Ga. at 521 n.l (affirming
conviction when transcript of one day of three-day trial
reconstructed, using a similar method to that employed here).
Here, in accordance with OCGA 5-6-41 (f) and (g) and the trial
court’s detailed order, the State presented testimony from all five
original trial witnesses whose testimony had been lost, and, in an
18

effort to verify their testimony, called the Clerk of Court and the
only living prosecuting attorney. See Mosley, 300 Ga. at 524 (2)
(affirming convictions when only three of four original witnesses
testified at hearing to reconstruct record). And while the
reconstructed testimony was relevant to the case, it essentially “set
the scene” for the jury and recounted the facts surrounding the
victim’s death, without specifically implicating the Bambergs. Some
of the reconstructed testimony was exculpatory, as one witness
testified that footprints and tire impressions on the scene could not
be connected with the Bambergs. Compare Sheard, 300 Ga. at 119120 (2) (holding that new trial required when missing portions of
transcript included closing arguments, questions from the jury, and
the entire charge of the court, which we described as “a crucial
portion of trial.”)
In addition to testimony from all of the fact witnesses from the
original trial, one of the original prosecutors confirmed that the
witnesses testified consistently with their original trial testimony.
Finally, the Clerk of Court identified her contemporaneous notes of
19

the witnesses and their testimony as originally given at the trial.
See, e.g., Leeks, 296 Ga. at 517 (2). The trial court then made a
factual finding as to whether the record “conform[ed] to the truth.”
OCGA § 5-6-41 (f).8 We conclude that this presentation was adequate
to support the trial court’s reconstruction of the first day of trial.
The Bambergs only reluctantly and minimally participated in
the reconstruction of the record. They did not present testimony
from their trial counsel or the original trial judge, by affidavit or
otherwise; they called no witnesses, and appellate counsels’
participation was minimal, limited to brief cross-examinations of the
witnesses presented by the State. As the hearing began, the trial
court asked the Bambergs’ appellate counsel who would be present
to observe on the Bambergs’ behalf and to testify whether the
witnesses’ new testimony was consistent with their trial testimony,
8 Our decisions make clear that when the original trial judge is no longer
presiding over the case, “the [current] trial court rather than the [original] trial
judge [is] the proper judicial figure to supplement the certified trial transcript
to reflect the truth of what occurred in the trial.” Nejad, 286 Ga. at 700 (1). See
also Leeks, 296 Ga. at 519 n.4 (2) (“We note that it makes no difference that
Judge Manis held the hearing on the State’s motion to supplement the record
and granted the motion, rather than Judge Glanville who presided over
Appellant’s trial.”).
20

in accordance with the trial court’s order. Appellate counsel
responded that it was the State’s responsibility to perfect the record
and that they were not prepared to participate.
On appeal, the Bambergs continue to insist that they had no
obligation to participate and no burden to meet in the process of
reconstructing the record, and that the transcript is still incomplete,
as it does not include any objections, bench conferences, or rulings
that may have occurred. Their contention that they may decline to
participate without consequence, however, is incorrect. In Glass,
this Court observed:
OCGA § 17-8-5 (a) requires the trial judge to ensure that
the testimony in all felony trials is taken down. This code
section clearly states that, in the event of a felony
conviction, it is the duty of the state, at its own expense
and through the agency of the presiding judge, to request
the court reporter to transcribe • the reported
testimony....
However,... the State’s duty to request the court reporter
to transcribe the reported testimony in a felony conviction
has no time limit and thus cannot relieve an appellant
from a felony conviction of his statutory duty to cause the
transcript to be prepared and filed as provided by Code
Section 5-6-41. . . . Thus, where the transcript does not
fully disclose what transpired in the trial court, the
21

burden is on the complaining party to have the record
completed pursuant to OCGA § 5-6-41.
(Citations and punctuation omitted.) 289 Ga. at 545 (2). See also
Nejad, 286 Ga. at 698 (1) (“It is true that the burden is on the party
which contends the transcript does not fully disclose what
transpired at trial to have the record completed at the trial court
pursuant to OCGA § 5-6-41 (f).” (Citation omitted)). In Johnson, we
observed, citing Glass and Nejad, that “[o]nce the State has satisfied
its obligation [to provide a transcript] under OCGA §§ 17-8-5 (a) and
5-6-41 (a) ... if the defendant believes the transcript omits or
misrepresents a necessary part of the proceeding, he has the
responsibility to seek to correct the transcript in that respect.” 302
Ga. at 193 n.7 (3) (a). See also Glass, 289 Ga. at 546 (3) “The law
does not permit [defendant-appellant], who as the complaining
party has the burden of having the record completed under OCGA §
5-6-41 (f), (g), simply to refuse to participate in the statutory
procedure and then claim error.” (Citations and punctuation
omitted.)

22

Once the State provided the testimony of all the original
witnesses, and evidence was presented that the witnesses’
testimony was consistent with their testimony at trial, the
Bambergs had an obligation to provide evidence in support of their
contention that the record was still incomplete, and to raise specific
objections rather than merely speculate about possible omissions in
the reconstructed testimony. See Gadson, 303 Ga. at 878 (3) (a)
(“[W]here ... an otherwise verbatim transcript is missing only one
or a few parts of the trial, the appellant is not entitled to a new trial
unless he alleges that he has been harmed by some specified error
involving the omitted part and shows that the omission prevents
proper appellate review of that error.”).9

Sonya’s contention that trial counsel could not be expected to assist
appellate counsel because “trial counsel cannot be made to assert his own
ineffectiveness” is without merit. Trial counsel would have been aiding in the
reconstruction of the transcript, not using the transcript to demonstrate any
error. Moreover, Sonya’s appellate counsel called her trial counsel at the
hearing on her motion for new trial, and she and Damon’s appellate counsel
questioned Sonya’s trial counsel extensively about matters occurring during
the trial, as has been done in numerous appeals before this Court in which
appellants contended that they received ineffective assistance of trial counsel.
Moreover, in many of this Court’s prior decisions on a reconstructed record, a
defendant’s trial counsel testified as part of the efforts at reconstruction,
g

23

The Bambergs failed to avail themselves of the opportunity to
participate in reconstruction of the trial testimony, and therefore did
not establish any error with regard to the reconstructed transcript.
This remains true even if the transcript theoretically could have
been made more certain, or if any portion of it could have been
undermined by testimony from other participants or observers.
3. Next, the Bambergs assert that the trial court erred in
declining to reopen the evidence on their motions for new trial. “It is
well settled that the decision to reopen evidence is a matter that
rests within the sound discretion of the trial court.” (Citations
omitted.) Walton v. State, 303 Ga. 11, 16 (4) (810 SE2d 134) (2018);
see also Danenberg v. State, 291 Ga. 439, 443 (5) (729 SE2d 315)
(2012).
After the hearing on the Bambergs’ motions for new trial, their
appellate counsel filed motions to reopen the evidence. In Damon’s
motion, his appellate counsel declared that appellate counsel

whether by affidavit or at a hearing held for that purpose. See, e.g., Mosley,
300 Ga. at 524 (2); Leeks v. State, 296 Ga. at 517 (2); Nejad, 286 Ga. at 695-696
(1).
24

“decided to watch some of the news stories about the case just for
entertainment purposes” and was “shocked” to discover a television
show dramatizing his client’s case, which, he alleged, included
exculpatory evidence. Damon’s appellate counsel attached to the
motion an unverified document that appellate counsel described as
a partial “transcription” of the show, purporting to show statements
by a narrator, actors, including an actor playing jail inmate Burtis
Taylor, and portions of an alleged interview with Taylor. Counsel
contended that this “transcription” shows that Taylor was acting as
a government agent and was assigned by prosecutors to extract
incriminating statements from the Bambergs. Taylor, however,
testified at trial that his conversations, primarily with Sonya, took
place as a result of his duties as a jail trustee. He testified
specifically that he was never asked by investigators or by the
prosecutor to obtain evidence from either of the Bambergs, that
neither the police nor the prosecutor made any promises to him or
gave him any hope of benefit, and that the State made no agreement
or deal with him regarding the charges he was facing at the time of
25

his incarceration.10
In little more than a single page of argument, Damon asserts
that the “transcription” shows that the State violated Massiah v.
United States, 377 U. S. 201 (84 SCt 1199, 12 LE2d 246) (1964),
Bruton v. United States, 391 U. S. 123 (88 SCt 1620, 20 LE2d 476)
(1968), Brady v. Maryland, 373 U. S. 83 (83 SCt 1194, 10 LE2d 215)
(1963), Giglio v. United States, 405 U. S. 150 (92 SCt 763, 31 LE2d
104) (1972), Napue v. Illinois, 360 U. S. 264 (79 SCt 1173, 3 LE2d
1217) (1959), and Smith v. Zant, 250 Ga. 645 (301 SE2d 32) (1983).
Sonya, in a somewhat lengthier argument, contends that the
“transcription” establishes a “prima facie case” that the witness was
acting on behalf of the government to elicit a confession from Sonya
in violation of Massiah, and that the State might have failed to
disclose this agency in violation of Brady and Giglio.
But we need not consider those questions, because the

10 On cross-examination, Taylor acknowledged that he had been a paid
confidential informant in the past, had assisted police “probably four or five
times total,” and had served as a jail trustee. He also acknowledged certified
copies of his numerous criminal convictions.
26

Bambergs have provided no potentially admissible evidence that
Taylor’s testimony at trial was false or that he acted at the direction
of the State in conversing with the Bambergs. The unverified partial
“transcription” of a television show, of uncertain provenance,
purportedly containing an interview with a witness, employing
actors, and fictionalized to an unknown degree, is rank hearsay and
has little if any probative value. Accordingly, the trial court did not
abuse its discretion in declining to reopen the evidence.
4. Citing Crawford v. Washington, 541 U. S. 36 (124 SCt 1354,
158 LE2d 177) (2004), and Bruton v. United States, 391 U. S. 123
(88 SCt 1620, 20 LE2d 476) (1968), Damon asserts that the
admission of Burtis Taylor’s testimony that Sonya told Taylor that
“she was in the vehicle when Damon actually done the shooting”
violated his right to confrontation. However, when Taylor testified
to Sonya’s statement at trial, which took place in 2009 under the
former Evidence Code, Damon did not object. Damon therefore failed
to preserve this claim for review. See Grissom v. State, 296 Ga. 406,
411 (2) (768 SE2d 494) (2015). Cf. McKinney v. State, 307 Ga. 129,
27

133 n.3 (2) (834 SE2d 741) (2019) (holding that under new Evidence
Code, failure to make Confrontation Clause objection at trial
precludes ordinary appellate review, but plain error review is
available.)
5. Sonya lists nine different statements or rulings made by the
trial court during trial and contends, for the first time on appeal,
that these comments, taken as a whole, “could have been construed
by the jury as an expression of opinion on the evidence and on the
credibility of the State’s witnesses, as well as a comment on the
credibility of the defense witnesses.” Citing only a single decision of
the Georgia Court of Appeals applying former OCGA § 17-8-57,
Haymer v. State, 323 Ga. App. 874 (747 SE2d 512) (2013), she
contends that her convictions and sentences “must be reversed.”
However, in relying upon Haymer, Sonya has overlooked the
2015 amendment to OCGA § 17-8-57 and our holding in Willis u.
State, 304 Ga. 122, 129 (2) (b) (816 SE2d 656) (2018), that this Code
section, as amended in 2015, applies to appeals decided after 2015.
Former OCGA § 17-8-57 provided that the expression of an opinion
28

by a trial judge in a criminal case "as to what has or has not been
proved ... [sjhall be held by the Supreme Court or Court of Appeals
to be error and the decision in the case reversed, and a new trial
granted .” In contrast, the revised Code section declares that any
party alleging that a trial judge has expressed an opinion to the jury
as to whether a fact has or has not been proved "shall make a timely
objection and inform the court of the specific objection and the
grounds for such objection, outside of the jury’s hearing and
presence.” OCGA § 17-8-57 (a) (2). Moreover, "failure to make a
timely objection . . . shall preclude appellate review, unless such
violation constitutes plain error which affects substantive rights of
the parties.” OCGA § 17-8-57 (b).
Here, Sonya failed to object at trial to any of the statements
now complained of, so a plain error analysis applies.
To establish plain error, Appellant must point to a legal
error that was not affirmatively waived, was clear and
obvious beyond reasonable dispute, affected his
substantial rights, and seriously affected the fairness,
integrity, or public reputation of judicial proceedings.
Hightower v. State, 304 Ga. 755, 759 (2) (b) (822 SE2d 273) (2018).
29

r

See also State v. Kelly, 290 Ga. 29, 33 (2) (a) (718 SE2d 232) (2011).
Sonya’s brief simply asserts that the individual statements or
rulings by the trial court violated former OCGA § 17-8-57.11 We have
reviewed each statement and ruling complained of, however, and we
conclude that Sonya has failed to show that the trial judge
“express[ed] or intimate[d] to the. jury the judge’s opinion as to
whether a fact at issue has or has not been proved.” OCGA § 17-857 (a) (l).12 The instances complained of involve the trial court’s
intervention to prevent witnesses from giving an impermissible
opinion or testifying without a proper foundation being laid; the trial
court’s questions to witnesses to clarify testimony; and the trial
court’s intervention to caution counsel not to assume facts not in
evidence or disparage a witness.

11 We have observed that, while an appellant need not specifically “castQ
the alleged infirmity as ‘plain error,’ parties should be advised that the hurdle
to establishing plain error is high . . . and therefore that the failure to
specifically articulate how the alleged error satisfies this high standard
increases the likelihood that their claims in this regard will be rejected.” Kelly,
290 Ga. at 32 n.2 (1).
12 One instance cited by Sonya occurred outside the presence of the jury,
and “[t]he prohibitions found in OCGA § 17-8-57 do not apply when the
complained of comments are made outside the presence of the jury.” Rhodes v.
State, 296 Ga. 418, 421 (2) (c) (768 SE2d 445) (2015).
30

It is well established that
a trial judge may propound questions to a witness to
develop the truth of the case, to clarify testimony, to
comment on pertinent evidentiary rules and to exercise
its discretion when controlling the conduct of counsel or
witnesses in order to enforce its duty to ensure a fair trial
to both sides.
(Citation and punctuation omitted.) Benton v. State, 301 Ga. 100,
102 (3) (799 SE2d 743) (2017). “[A]nd the extent of such an
examination is a matter for the trial court's discretion.” (Citations
omitted.) Finley v. State, 286 Ga. 47, 51 (9) (a) (685 SE2d 258) (2009).
Sonya has failed to demonstrate that the specified statements and
rulings constituted errors that were “clear and obvious beyond
reasonable dispute.” She therefore has failed to demonstrate plain
error.13
Judgments affirmed. All the Justices concur.

13 If one prong of the plain error test is not satisfied, we need not address
the other prongs of the test. See Kelly, 290 Ga at 34 n.5 (2) (b).
31

Filed in office this day
SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA
DEFENDANT: SONYA LOU BAMBERG
COUNT:

1

OFFENSE:

Tried at the MARCH

C cfekofSuperior Court

CASE NUMBER:

2008-SU-R-14

MURDER fMalice'l

Term, 2009

Jury Trial: Verdict of GUILTY
WHEREUPON, the defendant being before the bar of this court and showing no reason why
the sentence of the Court should not be pronounced;
IT IS CONSIDERED, ORDERED AND ADJUDGED that you, the above-named defendant
in the above-cited case, be taken from the B ar of this Court to the Jail of said County where you shall
be kept until demanded by a person sent by the authorities of this State for the purpose of conveying
you to a penal institution or such other place as the Director of the Department of Corrections of this
State may direct, and be punished by confinement and labor in said penal institution or such other
place or places for a period of LIFE

on each count to be computed from this date, provided you

remain in jail and do not file any motion or other proceeding to interfere with the operation of this
sentence, hi case any such motion or other proceeding is filed, this sentence shall be computed from
the time you return to custody after a final disposition of all pending matters affecting the execution
of this sentence.**
** See Attachment “A”
IT IS FURTHER ORDERED that the Clerk of this Court notify the Director of the
Department of Corrections of your conviction and sentence as required by law.

IN OPEN COURT, this 28th day of

Prepared by:
Jan Kennedy
Assistant District Attorney
Brunswick Judicial Circuit

SEPTEMBER .2009.

AMANDA F. WILLIAMS
Chief Judge, Superior Court
Brunswick Judicial Circuit

1

Filed In office this day
SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA
STATE VS. SONYA LOU BAMBERG

L Jil

1-2009

e

CASE NO: 2008-SU-R-14
ATTACHMENT “A”
As a special condition of probation, defendant must abide by the following
requirements:
1. Defendant must fully cooperate with any legal action on behalf of the victim’s
children, Gabriel and Elijah, regarding the Globe Life insurance policy Damon
and Sonya Bamberg purchased on the victim, Alison Nicole Bamberg.
2. The Victim’s Witness Assistance program shall fund treatment for post traumatic
stress disorder for the victim’s children.
3. All of Defendant’s assets shall be sold and placed in a trust with those funds to be
used to pay for the victim’s children’s treatment. If any funds remain, then those
funds shall be used to pay $11,122.48 restitution due to Rita Orvin.

H

Filed in office this day
SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA

v Cl$fk of Superior Court __ '
CASE NUMBER: 2008-SU-R-14

DEFENDANT: SONYA LOU BAMBERG
COUNT:

2

OFFENSE:

Tried at the MARCH
Jury Trial:

4®5*u**,
vS.IttfM

FELONY MURDER

Term, 2009

Verdict of GUILTY

WHEREUPON, the defendant being before the bar of this court and showing no reason why
the sentence of the Court should not be pronounced;
IT IS CONSIDERED, ORDERED AND ADJUDGED that you, the above-named defendant
in the above-cited case, be taken from the Bar of this Court to the Jail of said County where you shall
be kept until demanded by a person sent by the authorities of this State for the purpose of conveying
you to a penal institution or such other place as the Director of the Department of Corrections ofthis
State may direct, and be punished by confinement and labor in said penal institution or such other
place or places for a period of______ on each count to be computed from this date, provided you
remain in jail and do not file any motion or other proceeding to interfere with the operation of this
sentence. In case any such motion or other proceeding is filed, this sentence shall be computed from
the time you return to custody after a final disposition of all pending matters affecting the execution
of this sentence.
* No sentence on this count as Count 2 merges with Count 1.
IT IS FURTHER ORDERED that the Clerk of this Court notify the Director of the
Department of Corrections of your conviction and sentence as required by law.

IN OPEN COURT, this 28th day of

Prepared by:
Jan Kennedy
Assistant District Attorney
Brunswick Judicial Circuit

SEPTEMBER .2009.

AMANDA F. WILLIAMS
Chief Judge, Superior Court
Brunswick Judicial Circuit

-

Filed in office this day
SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA
DEFENDANT: SONYA LOU BAMBERG
COUNT:

3

OFFENSE:

Tried at the MARCH
Jury Trial:

(Cl^rkof Superior
CASE NUMBER: 2008-SU-R-14

3',/0&W

AGGRAVATED ASSAULT

Term, 2009

Verdict of GUILTY

WHEREUPON, the defendant being before the bar of this court and showing no reason why
the sentence of the Court should not be pronounced;
IT IS CONSIDERED, ORDERED AND ADJUDGED that you, the above-named defendant
in the above-cited case, be taken from the Bar of this Court to the Jail of said County where you shall
be kept until demanded by a person sent by the authorities of this State for the purpose of conveying
you to a penal institution or such other place as the Director of the Department of Corrections of this
State may direct, and be punished by confinement and labor in said penal institution or such other
place or places for a period of

(

) years on each count to be computed from this date,

provided you remain in jail and do not file any motion or other proceeding to interfere with the
operation of this sentence. In case any such motion or other proceeding is filed, this sentence shall
be computed from the time you return to custody after a final disposition of all pending matters
affecting the execution of this sentence.
* No sentence on this count as Count 3 merges with Count 2.
IT IS FURTHER ORDERED that the Clerk of this Court notify the Director of the
Department of Corrections of your conviction and sentence as required by law.

IN OPEN COURT, this 28™ day of

Prepared by:
Jan Kennedy
Assistant District Attorney
Brunswick Judicial Circuit

SEPTEMBER .2009.

AMANDA F. WILLIAMS
Chief Judge, Superior Court
Brunswick Judicial Circuit

Filed in office this day
SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA

5

OFFENSE: POSS./FIREARM DURING COMMISSION OF A CRIME

Tried at the MARCH
Jury Trial:

Term. 2009

Verdict of GUILTY

WHEREUPON, the defendant being before the bar of this court and showing no reason why
the sentence of the Court should not be pronounced;
IT IS CONSIDERED, ORDERED AND ADJUDGED that you, the above-named defendant
in the above-cited case, be taken from the Bar of this Court to the Jail of said County where you shall
be kept until demanded by a person sent by the authorities of this State for the purpose of conveying
you to a penal institution or such other place as the Director of the Department of Corrections of this
State may direct, and be punished by confinement and labor in said penal institution or such other
place or places for a period of FIVE (5 ) years on each count to be computed from this date,
provided you remain in jail and do not file any motion or other proceeding to interfere with the
operation of this sentence. In case any such motion or other proceeding is filed, this sentence shall
be computed from the time you return to custody after a final disposition of all pending matters
affecting the execution of this sentence.*
* This count is consecutive to Count 1 and to Count 4.

IT IS FURTHER ORDERED that the Clerk of this Court notify the Director of the
Department of Corrections of your conviction and sentence as required by law.

IN OPEN COURT, this 28™ day of

Prepared by:
Jan Kennedy
Assistant District Attorney
Brunswick Judicial Circuit

'

jMbJM
CASE NUMBER: 2008-SU-R-14

DEFENDANT: SONYA LOU BAMBERG
COUNT:

TcWk ot Superior Court

SEPTEMBER .2009.

AMANDA F. WILLIAMS
Chief Judge, Superior Court
Brunswick Judicial Circuit

Filed in office this day
'■/i SEP 2-92009

l\

SUPERIOR COURT OF JEFF DAVIS COUNTY,
STATE OF GEORGIA
DEFENDANT: SONYA LOU BAMBERG
COUNT:__ 6

CASE NUMBER: 2008-SU-R-14

OFFENSE: CRIMINAL DAMAGE TO PROPERTY, 2nd DEGREE

Tried at the MARCH
Jury Trial:

rk of Superior Court

Term, 2009

Verdict of GUILTY

WHEREUPON, the defendant being before the bar of this court and showing no reason why
the sentence of the Court should not be pronounced;
IT IS CONSIDERED, ORDERED AND ADJUDGED that you, the above-named defendant
in the above-cited case, be taken from the Bar of this Court to the Jail of said County where you shall
be kept until demanded by a person sent by the authorities of this State for the purpose of conveying
you to a penal institution or such other place as the Director of the Department of Corrections of this
State may direct, and be punished by confinement and labor in said penal institution or such other
place or places for a period of FIVE

( 5 ) years on each count to be computed from this date,

provided you remain in jail and do not file any motion or other proceeding to interfere with the
operation of this sentence. In case any such motion or other proceeding is filed, this sentence shall
be computed from the time you return to custody after a final disposition of all pending matters
affecting the execution of this sentence.*
* This count is consecutive to Count 1 and Count 4 and Count 5.
* Restitution of S11,122.48 shall be paid to Rita Orvin.
IT IS FURTHER ORDERED that the Clerk of this Court notify the Director of the
Department of Corrections of your conviction and sentence as required by law.

IN OPEN COURT, this 28th day of

Prepared by:
Jan Kennedy
Assistant District Attorney
Brunswick Judicial Circuit

SEPTEMBER .2009.

AMANDA F. WILLIAMS
Chief Judge, Superior Court
Brunswick Judicial Circuit

